                                      U.S. ELECTION ASSISTANCE COMMISSION
                                         1201 New York Ave. NW - Suite 300
                                               Washington, DC 20005




   EAC Statement Concerning Inspector General Report


March 26, 2010 – Today the U.S. Election Assistance Commission’s (EAC) Inspector
General (IG) released a report about the work environment at the EAC. The report,
conducted from October 1, 2009 to January 4, 2010, concluded that employees are not
subjected to a hostile work environment.

The effort was long, but worthwhile and the EAC commissioners and management
appreciate the IG’s professional approach. EAC cooperated fully, giving employees
ample time for interviews, setting up alternative workspace for conducting the IG’s
interviews, and reminding staff in writing of their rights and obligation to be forthright
and cooperative with the IG.

EAC’s success depends upon its employees; that is why before the IG began his review,
management had already taken steps to make sure employees are treated fairly and enjoy
working at EAC. These steps include teambuilding exercises, additional management
training, and emphasizing management’s commitment to open communication.

“I believe we have made significant progress toward improving workplace
communication and management practices,” said Chair Donetta Davidson. “Even though
no specific recommendations were included, the EAC management team will read this
report carefully and continue to make improvements on behalf of our employees,” added
Executive Director Thomas Wilkey.

The EAC commissioners and management express their thanks to EAC employees for
conducting themselves professionally and for the work they do on behalf of America’s
voters. They also thanked the IG for his contribution and continued commitment to
efficiency and fairness at the EAC.
